No.

IN THE

Jgmpreme (Court rrf ttp Mnitrb States
Jorge Armando Herrera Salguero,

Petitioner,
v.

People of the State of California,

Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

MOTION FOR LEAVE TO PROCEED INFORMA PAUPERIS

Cuauhtemoc Ortega
Interim Federal Public Defender
Mark R. Drozdowski*
Deputy Federal Public Defender
321 East 2nd Street
Los Angeles, California 90012
Telephone: (213) 894-2854
Facsimile: (213) 894-0081
Mark_Drozdowski@fd.org

Attorneys for Petitioner
* Counsel of Record

Petitioner, by his undersigned counsel, asks leave to file the attached
Petition for Writ of Certiorari to the United States Court of Appeals for the
Ninth Circuit without prepayment of costs and to proceed in forma pauperis.

Petitioner is indigent and was represented by the Office of the Federal Public

Defender for the Central District of California in District Court and the
Ninth Circuit under the Criminal Justice Act, 18 U.S.C. ยง 3006A(b).

This motion is brought pursuant to Rule 39.1 of the Rules of the
Supreme Court of the United States.

Respectfully submitted,
CUAUHTEMOC ORTEGA
Interim Federal Public Defender

DATED: July 16, 2020
MARK R. DROZDOWSKI*
Deputy Federal Public Defender
Attorneys for Petitioner
* Counsel of Record

1

